                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

     Case Number: A-090200C$5                                                                  Page 1 of 1



           We received two allegations from the complainant.' The complainant alleged that the subject
           failed to complete a subcontract as described and paid for under the complainant's NSF awarded
           proposal.3 In addition, the complainant initially stated that a draft abstract, on which his name
           originally appeared as one of the authors, had been published with his name removed. We
           contacted the complainant for more information, who, after reviewing his materials, explained
           that the abstract had not been published as he thought it had. Further, he explained that he did
 I         get the materials at the end of the subcontract that he asked for, although he refused to use them
           because he thought they were not exactly what he had wanted.

           Our review confirmed that the abstract had not been published. Further, we determined that the
           subcontractor had provided the materials as specified.

           This case is closed.




I'
 NSF 01G Fo1ill2 (1 1/02)
